Case: 20-1043

Document: 41

Filed: 03/17/2021

Pages: 14

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 20-1043
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ANTOINE L. WALLACE,
Defendant-Appellant.
____________________
Appeal from the United States District Court for the
Central District of Illinois.
No. 19-20023 — Michael M. Mihm, Judge.

____________________
ARGUED SEPTEMBER 24, 2020 — DECIDED MARCH 17, 2021
____________________
Before EASTERBROOK, MANION, and KANNE, Circuit Judges.
MANION, Circuit Judge. A jury convicted Antoine Wallace
of being a felon in possession of a ﬁrearm. The judge sentenced him to 78 months in prison. Wallace asks us to vacate
the conviction because there was insuﬃcient evidence that
he possessed a ﬁrearm. But an oﬃcer testiﬁed he saw Wallace pointing a silver handgun at him. Wallace challenges
this testimony, but fails to overcome the standard of review,
so we aﬃrm the conviction.

Pet. App. 01a

Appendix A

Case: 20-1043

Document: 41

Filed: 03/17/2021

2

Pages: 14

No. 20-1043

Wallace also challenges his sentence for two reasons.
First, he claims the district court erred by adding two criminal history points based on his 2015 Illinois conviction for
ﬂeeing police even though, his argument goes, he never
served time in custody for that conviction. But he admits the
record shows he did serve time for that conviction. Second,
he claims the court erred by adding eight levels to his
oﬀense level based on his 2004 Illinois drug conviction. He
argues that conviction is not a “controlled substance oﬀense”
under the guidelines because the Illinois statute was broader
than federal law. But our recent precedent foreclosed this
argument. So we aﬃrm the sentence.
I.
We view the occurrence facts in the light most favorable
to the government.
Responding to a 911 call, oﬃcers approached a residence
in Champaign, Illinois, late in the evening of October 14,
2018. Oﬃcer Kristensen took a position outside at the back of
the residence. He saw someone walking in the backyard and
shined a ﬂashlight toward the ﬁgure: a black man wearing a
black sweatshirt with writing on the arm and black pants.
This man then squared his body, raised his right hand
straight out in front, and pointed a silver handgun at Kristensen as though preparing to shoot, according to Kristensen’s testimony.
Kristensen took cover by a corner of the house, identiﬁed
himself as a police oﬃcer, and radioed other oﬃcers that he
had seen someone with a gun in the backyard. The ﬁgure
ﬂed. Oﬃcers searched for him based on Kristensen’s description of him. Oﬃcers heard a fence rattle in the area, in-

Pet. App. 02a

Case: 20-1043

Document: 41

Filed: 03/17/2021

No. 20-1043

Pages: 14

3

dicating the man ran east. Then he triggered a motiondetector light and the oﬃcers saw him.
Kristensen ordered him to the ground. He put his hands
up but did not comply. His hands appeared empty. He wore
the same clothes Kristensen had seen before on the ﬁgure in
the backyard. He was out of breath and sweaty. Oﬃcers
pinned him down, handcuﬀed him, and searched him but
did not ﬁnd a gun. He turned out to be Wallace.
Oﬃcers searched the area and found a silver handgun on
the roof gutter of a nearby house. No twigs or debris were on
the gun. It was visible from the ground. According to Kristensen, it looked like the gun Wallace pointed at him. It was
fully loaded and had a round in the chamber.
II.
The jury convicted Wallace of being a felon in possession
of a ﬁrearm. Wallace challenges the denial of his Rule 29 motion for judgment of acquittal. We review the denial de novo,
but in doing so we view the evidence in the light most favorable to the government to determine whether any rational trier of fact could have found the essential elements of the
charged oﬀense beyond a reasonable doubt. United States v.
Garcia, 919 F.3d 489, 496 (7th Cir. 2019). We will not reweigh
the evidence or reassess credibility. United States v. Carrillo,
435 F.3d 767, 775 (7th Cir. 2006).
The only element at issue here is whether Wallace knowingly possessed a gun. The jury heard evidence he did.
Oﬃcer Kristensen testiﬁed he “saw a subject” walking outside near the house. Kristensen “illuminated the subject with
[his] ﬂashlight.” Kristensen testiﬁed that his training taught
him to check the subject’s hands ﬁrst because the hands

Pet. App. 03a

Case: 20-1043

Document: 41

Filed: 03/17/2021

4

Pages: 14

No. 20-1043

could possess a weapon so “the hands are what can kill
you”. 1 So Kristensen checked the subject’s hands: “[W]hen I
ﬁrst illuminated him, he squared his body up to me, and I
saw what appeared to be a silver handgun in his right hand.
… [H]e raised it toward me in a shooting stance. … Straight
arm, raising it up at your target.”
Kristensen testiﬁed that during this encounter, he was
“100 percent” sure he had seen a gun in the subject’s hands.
Kristensen immediately jumped behind a corner for cover and unholstered his gun. He was concerned about being
shot. He radioed the other oﬃcers that there was an armed
subject in the backyard and he described the subject as a
black male wearing a black sweatshirt with white writing on
the arm and black pants.
Kristensen and other oﬃcers pursued the subject. As
Kristensen approached a diﬀerent house, he saw the same
subject in the driveway, walking toward him. Kristensen
pointed his gun at the subject and ordered him to the
ground. But the subject continued walking. Two other oﬃcers grabbed his arms and took him to the ground. Less than
a minute and a half elapsed between Kristensen’s ﬁrst sighting of the subject and his arrest.
Kristensen patted the subject down and then searched
the area for the gun. Other oﬃcers also looked for the gun
based on Kristensen’s description of a “silver handgun.”
As they searched, Kristensen misspoke to another oﬃcer.
Kristensen said that as he illuminated the subject during
their ﬁrst encounter, Kristensen announced himself. This
1

The location of this period is no mistake.

Pet. App. 04a

Case: 20-1043

Document: 41

Filed: 03/17/2021

No. 20-1043

Pages: 14

5

was false. Kristensen acknowledged on the witness stand
that body-cam footage reveals he announced himself only
after diving for cover. He explained the discrepancy to the
jury: “It happened so fast, I didn’t have time to give an announcement, but that’s what we’re trained to do, identify
ourselves as police oﬃcers.”
The government played Kristensen’s body-cam footage
for the jury. Kristensen testiﬁed he could see in the video a
gun in Wallace’s hand. And Kristensen reiterated that he also saw the gun with his own eyes during the ﬁrst encounter.
The search for the gun took about 30 minutes. Kristensen
admitted that during the search, he became “slightly” less
conﬁdent he had seen a gun. He explained: “I had just had a
gun pointed at me, and it’s now unaccounted for.”
An oﬃcer found a gun in the roof gutter of a nearby
house. Kristensen testiﬁed the gun had the same appearance,
approximate size, and color as the gun he saw pointed at
him. The government showed a gun to the jury, and Kristensen tied it to the gutter and to Wallace’s hand. Kristensen testiﬁed that as he sat in court, he was conﬁdent that on October 14, 2018, he saw Wallace holding the gun that became an
exhibit: “I would say I was as conﬁdent as I was when it was
pointed at me.”
Kristensen testiﬁed that he learned the subject’s name:
Antoine Wallace. Kristensen identiﬁed Wallace in court.
When he was arrested, Wallace was wearing the same clothing he wore when Kristensen ﬁrst saw him.
The defense made some progress on cross. Kristensen
seemed to retreat from his testimony that he could see a gun
on the body-cam video. But he reiterated, again, that he saw

Pet. App. 05a

Case: 20-1043

Document: 41

Filed: 03/17/2021

6

Pages: 14

No. 20-1043

the gun during the event: “I saw it with my own eyes. …
You can’t tell what’s in his hand on the body cam footage.
That’s why I’m here to testify from what I saw with my own
eyes.”
Kristensen also admitted, again, that he made a mistake
when he told another oﬃcer that he announced his identity
as a police oﬃcer earlier than he actually announced. Kristensen also acknowledged that he only saw the gun in the
subject’s hand for a brief amount of time. But he denied that
there was a possibility the subject did not have a gun in his
hand. Kristensen admitted he was not 100 percent certain
that the gun in exhibit was the gun in the subject’s hand.
So the jury heard Kristensen testify he saw Wallace holding a gun. Defense counsel had some basis to attempt to cast
doubt on Kristensen’s testimony. The oﬃcer was mistaken
about when he announced his identity. He did not see Wallace’s movements between their ﬁrst and second encounters,
less than a minute and a half apart. And Kristensen could
not see a gun in the “blurry” video.
But the jury was free to assess his reliability and credibility. And the jury watched the video. The jury was entitled to
accept Kristensen’s explanation that he misspoke about the
timing of his announcement. The jury was entitled to accept
that eyes can see more details in person than on a blurry
video. The jury was free to believe Kristensen. We will not
reassess credibility or reweigh the evidence. The evidence
was suﬃcient for a rational jury to ﬁnd Wallace guilty.
III.
Wallace argues the judge erred by adding two criminal
history points based on his 2015 Illinois conviction for ﬂee-

Pet. App. 06a

Case: 20-1043

Document: 41

Filed: 03/17/2021

No. 20-1043

Pages: 14

7

ing police. He argues this was error because he never served
any time in custody on that case. He claims he bonded out
the day he was arrested.
We review the judge’s application of the sentencing
guidelines for procedural error de novo, and we review factual ﬁndings for clear error.
The guidelines add two points for each prior sentence of
imprisonment between and including 60 days and 13
months. U.S.S.G. § 4A1.1(a), (b). The guidelines add only one
point for each prior sentence of imprisonment less than 60
days. Id. § 4A1.1(c). The guidelines deﬁne “sentence of imprisonment”: “The term ‘sentence of imprisonment’ means a
sentence of incarceration and refers to the maximum sentence imposed.” Id. § 4A1.2(b).
In 2014, Wallace was charged in Illinois state court with
ﬂeeing police. The state court convicted him of that crime in
2015 in Champaign County Case No. 2014-CF-1249. The
state court sentenced him to 136 days’ incarceration: “Defendant is ordered to serve a period of incarceration of 136
days in the Champaign County Correctional Center. Defendant is to receive credit for 136 days previously served.”
(Sentencing Order, Aug. 31, 2015, Champaign Cty. Case No.
2014-CF-1249, App. 31 to Appellant’s Br.)
Because 136 days is between 60 days and 13 months, the
district judge added two points to Wallace’s criminal history
score. This resulted in a total of ten criminal history points,
putting Wallace in criminal history category V. Combined
with his total oﬀense level of 22, Wallace faced a guidelines
range of 77 to 96 months. Had the district judge added no
points (or even only one point) to the criminal history score

Pet. App. 07a

Case: 20-1043

Document: 41

Filed: 03/17/2021

8

Pages: 14

No. 20-1043

based on the ﬂeeing conviction, Wallace would have rested
in criminal history category IV, and faced a guidelines range
of 63 to 78 months.
Wallace argues this calculation was erroneous because he
never actually served any jail time on the ﬂeeing case.
The parties highlight diﬀerent portions of the same
guidelines application note. Wallace emphasizes the ﬁrst
part of application note 2: “To qualify as a sentence of imprisonment, the defendant must have actually served a period of imprisonment on such sentence … .” U.S.S.G. § 4A1.2,
n.2.
But the government emphasizes the last part of the same
note: “That is, criminal history points are based on the sentence pronounced, not the length of time actually served.” Id.
Wallace argues he did not serve any time in custody on
the 2015 ﬂeeing conviction. He claims he bonded out the day
of the arrest. He argues he spent 136 days in custody on a
diﬀerent case, which was ultimately dismissed. He argues
the guidelines require actual service of imprisonment for a
prior sentence to count toward the criminal history category.
But he admits in his opening appellate brief that the ﬂeeing
judgment says he served 136 days on that case: “Wallace
does not dispute that the state judgment claims that he
served 136 days on -1249.” Wallace argues that judgment
was wrong, and is disproved by the state court’s docket.
Wallace warns of a potential circuit split between us and
the Sixth and Eleventh Circuits. See United States v. Chatmon,
565 Fed. Appx. 345, 349 (6th Cir. 2014) (“A sentenced [sic]
imposed—but one for which the defendant does not serve
time, perhaps because of suspension or stay—does not count

Pet. App. 08a

Case: 20-1043

Document: 41

Filed: 03/17/2021

No. 20-1043

Pages: 14

9

as a ‘sentence of imprisonment’ for criminal-history purposes, under §§ 4A1.1(a), (b) … .”); United States v. Hall, 531 F.3d
414, 419 (6th Cir. 2008) (defendant who receives full credit
for time served on a diﬀerent conviction does not “actually
serve” any time for oﬀense in question); United States v. Butler, 229 F.3d 1077, 1079 (11th Cir. 2000) (defendant did not
“actually serve” time on sentence when he received credit
for time served in a prior, totally unrelated case).
The government argues criminal history points are based
on the sentence pronounced, not the length of time actually
served. And the government points to our 2000 decision in
United States v. Staples, where we aﬃrmed a district court’s
assignment of two criminal history points based on a prior
conviction and sentence of 250 days in jail even though that
defendant received 250 days’ credit for time previously
served on an unrelated probation violation. 202 F.3d 992,
997–98 (7th Cir. 2000).
But here we need not revisit Staples, or wade into the nuances of the application note, or question our sister circuits.
Here, it is suﬃcient that the state court’s 2015 ﬂeeing judgment says, “Defendant is to receive credit for 136 days previously served.” And Wallace admits in his brief that he
“does not dispute that the state judgment claims that he
served 136 days on -1249.” Wallace argues that judgment
was wrong. But that is essentially a misplaced collateral
attack on a state-court judgment. See Custis v. United States,
511 U.S. 485, 497 (1994); McNair v. United States, 962 F.3d 367,
367–68 (7th Cir. 2020); Ryan v. United States, 214 F.3d 877,
877–78 (7th Cir. 2000). So we ﬁnd no error here.

Pet. App. 09a

Case: 20-1043

Document: 41

Filed: 03/17/2021

10

Pages: 14

No. 20-1043
IV.

Wallace also argues the court erred by adding eight levels
to his oﬀense level based on his 2004 Illinois drug conviction
under 720 ILCS 570/407(b)(1). He argues that conviction is
not a “controlled substance oﬀense” under the guidelines
because the Illinois statute was broader than federal law. But
our recent precedent foreclosed this argument.
Wallace’s base oﬀense level went from 12 to 20 under
U.S.S.G. § 2K2.1(a)(4)(A) because of his 2004 Illinois drug
conviction. That guidelines section says that the base oﬀense
level is 20 if the defendant committed the instant oﬀense after “sustaining one felony conviction of either a crime of violence or a controlled substance oﬀense … .”
The guidelines deﬁne “controlled substance oﬀense”:
The term “controlled substance oﬀense” means
an oﬀense under federal or state law, punishable by imprisonment for a term exceeding one
year, that prohibits the manufacture, import,
export, distribution, or dispensing of a controlled substance (or a counterfeit substance) or
the possession of a controlled substance (or a
counterfeit substance) with intent to manufacture, import, export, distribute, or dispense.
U.S.S.G. § 4B1.2(b). The parties agree that this deﬁnition applies. See U.S.S.G. § 2K2.1, n.1.
Wallace argues his 2004 Illinois drug conviction is not a
“controlled substance oﬀense” under the guidelines because
the state law is broader than the federal deﬁnition. His argument runs like this. The phrase “controlled substance” in
U.S.S.G. § 4B1.2(b) refers only to substances in the federal

Pet. App. 10a

Case: 20-1043

Document: 41

Filed: 03/17/2021

No. 20-1043

Pages: 14

11

Controlled Substances Act. The Illinois statute of prior conviction is indivisible. When a state statute is indivisible, and
punishes conduct not covered by the federal enhancement
provision, a conviction under that state statute cannot enhance a federal sentence under that provision. See Descamps
v. United States, 570 U.S. 254, 277–78 (2013). The Illinois statute criminalizes the positional isomer of cocaine, which is
not a controlled substance under federal law. The Illinois
statute also permits conviction for a larger swath of analog
substances than federal law does. So the Illinois statute is
broader than the federal deﬁnition. So, under the categorical
approach, the prior conviction under the Illinois statute cannot raise the current oﬀense level via § 2K2.1(a)(4)(A).
In his brief, Wallace noted that a similar issue was pending before us in United States v. Ruth and United States v.
Nebinger. We recently resolved both cases.
Ruth foreclosed Wallace’s arguments. We concluded
there was “no textual basis to engraft the federal Controlled
Substances Act’s deﬁnition of ‘controlled substance’ into the
career-oﬀender guideline.” Ruth, 966 F.3d 642, 654 (7th Cir.
2020). The Sentencing Commission knew how to crossreference federal statutory deﬁnitions in the guidelines. But
§ 4B1.2(b) “does not incorporate, cross-reference, or in any
way refer to the Controlled Substances Act.” Ruth, 966 F.3d
at 651.
Section 4B1.2(b) deﬁnes “controlled substance oﬀense”
broadly, “and the deﬁnition is most plainly read to include
state-law oﬀenses related to controlled or counterfeit substances punishable by imprisonment for a term exceeding
one year.” Ruth, 966 F.3d at 654 (internal quotation marks
omitted). There is no textual reason to narrow the phrase to

Pet. App. 11a

Case: 20-1043

Document: 41

Filed: 03/17/2021

12

Pages: 14

No. 20-1043

the Controlled Substances Act’s deﬁnition. So we are left
with the natural meaning of “controlled substance.” We
quoted a dictionary deﬁnition in Ruth: “A controlled substance is generally understood to be ‘any of a category of behavior-altering or addictive drugs, as heroin or cocaine,
whose possession and use are restricted by law.’” Id. at 654
(quoting controlled substance, The Random House Dictionary
of the English Language (2d ed. 1987)). So Wallace’s assertion that we “have no controlling authority on whether ‘controlled substance’ in U.S.S.G. § 4B1.2(b) means ‘a substance
controlled in the Controlled Substances Act,’ or something
broader” is no longer true after Ruth. And the fatal ﬂaw in
Wallace’s logic—assuming that “controlled substance
oﬀense” in § 4B1.2(b) is coterminous with the Controlled
Substances Act—is the same as the fatal ﬂaw in Ruth’s logic. 2
Given the natural meaning of “controlled substance,”
Wallace’s 2004 Illinois drug conviction is a controlled substance oﬀense according to the guidelines. Thus, the judge
did not err in using a base oﬀense level of 20. 3
In his citation of additional authority, Wallace acknowledges that Ruth defines “controlled substance” for guidelines purposes using the “natural meaning” of the phrase,
and not using the federal Controlled Substances Act. Wal2

Maybe it was always strange to think § 4B1.2(b) limited controlled
substance to those proscribed by the federal Controlled Substances Act
when that section specifically references “federal or state law.” (Emphasis
added.) But we leave that aside.
3

As we did in Ruth, we recognize that there is already a circuit split
on this issue. See United States v. Bautista, No. 19-10448, 2021 WL 769601,
at *3 (9th Cir. Feb. 26, 2021) (collecting cases); Ruth, 966 F.3d at 653; United States v. Hudson, 618 F.3d 700, 704 (7th Cir. 2010).

Pet. App. 12a

Case: 20-1043

Document: 41

Filed: 03/17/2021

No. 20-1043

Pages: 14

13

lace disagrees with Ruth’s definition and cites foreign cases.
But neither Wallace’s disagreement nor the foreign cases
control us.
But Wallace does make an interesting argument. He says
that even under Ruth’s “natural meaning” definition of “controlled substance offense” as “behavior-altering or addictive
drugs, as heroin or cocaine, whose possession and use are
restricted by law,” the Illinois statute of Wallace’s prior conviction is still overbroad under the categorical approach because that statute bans positional isomers of cocaine. He argues it is “highly unlikely” that positional isomers of cocaine
are psychoactive. So, the argument goes, it is highly unlikely
they alter behavior. So they do not fit the “natural meaning”
of “controlled substance.” So the Illinois statute of prior conviction cannot serve as a predicate under the guidelines.
But Wallace’s argument fails for three reasons. One, Ruth
itself dealt with the Illinois statute banning positional isomers of cocaine. So Ruth already decided that positional
isomers of cocaine fit the natural meaning of “controlled
substance.” Two, even if Ruth had not been that specific, we
know Illinois law expressly controlled positional isomers of
cocaine, so they fit the natural meaning of “controlled substance” and we should not speculate about whether they alter behavior. Three, there is no reason to think Ruth’s quotation of a Random House Dictionary definition of “controlled
substance” is the only possible way to say the natural meaning of the phrase. And there is no reason to think Ruth’s quotation establishes an exclusive list of technical alternative elements that must be satisfied. Ruth itself contains no such

Pet. App. 13a

Case: 20-1043

Document: 41

Filed: 03/17/2021

14

Pages: 14

No. 20-1043

indications. We could have used a different dictionary in
Ruth just as well. 4
V.
The evidence sufficiently supported Wallace’s conviction.
The judge did not err in calculating Wallace’s criminal history category or base offense level. We affirm.

4

We recently resolved United States v. Nebinger, 987 F.3d 734 (7th Cir.
2021). That decision does not alter our conclusion here.

Pet. App. 14a

USA v. ANTOINE WALLACE, Case No. 19-20023 -- Sentencing (01/07/2020) 3
1
2

THE COURT:

And as I understand it, you have

identified an objection or objections?

3

MR. MALIZA:

I have, Your Honor, and I'd like

4

to get started by stating it is the same exact issue that

5

Ms. Ritzer and I discussed yesterday in 19-20005; so my

6

proposal would be to incorporate all the arguments I made

7

yesterday regarding that point, the written and spoken

8

arguments we made, at least for my part.

9

THE COURT:

10

MS. RITZER:

I agree.
The government's agreeable to

11

that, Your Honor.

12

I'd, of course, ask the Court to consider; but I have no

13

problem relying on the arguments from yesterday.

14
15

We did file a written response which

THE COURT:

Yes, and I appreciate that; thank

MR. MALIZA:

And one other note, Your Honor.

you.

16
17

did file something in this case, knowing it's a

18

placeholder for all the arguments; --

19

THE COURT:

20

MR. MALIZA:

Right.
-- but when I say written and

21

spoken arguments from Mr. Ruth's case, would you like me

22

to refile these as an exhibit, the memorandum of law

23

from --

24

THE COURT:

25

MR. MALIZA:

I

Yeah.

You can do that, although --

I think that I covered the bases.

LISA KNIGHT COSIMINI, RMR-CRR
Official Court Reporter - U.S. District Court
(217) 355-4227

Pet. App. 15a

Appendix B

USA v. ANTOINE WALLACE, Case No. 19-20023 -- Sentencing (01/07/2020) 4
1

THE COURT:

You pretty much covered it.

2

There's no doubt, based on what we presently have, that

3

the issue is clearly defined; the positions of the

4

parties are carefully set out.

5
6

MR. MALIZA:

Honor, to avoid any risk of waiver, --

7

THE COURT:

8

MR. MALIZA:

9

If it's all the same to you, Your

Absolutely.
-- and I've offered it to Ms.

Ritzer already.

10

THE COURT:

Okay.

And so -- and with all due

11

respect to defense counsel, my ruling is the same.

12

going to deny the defense position on this issue as I did

13

yesterday.

14

MR. MALIZA:

15

With that, we have no other objections.

16

THE COURT:

17

I'm

I understand, Your Honor.

Did you have any other objections

to the report?

18

(Brief pause in proceedings; the Court is

19

conferring with Law Clerk Schoenbein.)

20
21

THE COURT:
why he actually --

22

MR. MALIZA:

23

THE COURT:

24

MR. MALIZA:

25

So, there was an objection about

Yes, Your Honor.
-- served some time?
Your Honor, this is an objection

I'm making as an overrepresentation of his criminal

LISA KNIGHT COSIMINI, RMR-CRR
Official Court Reporter - U.S. District Court
(217) 355-4227

Pet. App. 16a

USA v. Nathaniel M. Ruth, No. 19-20005 -- Sentencing (01/06/2020)
1

the possession of a controlled substance (or a

2

counterfeit substance) with intent to manufacture,

3

import, export, distribute, or dispense."

4

THE COURT:

23

So your argument would be because

5

it includes both -- admitting that the federal definition

6

is more limited than the state, it includes both; so

7

you're saying that it's okay?

8
9

MS. RITZER:

Your Honor, my -- our position is

that because it states specifically means an offense

10

under federal or state law that is punishable for

11

prohibiting the distribution of, or possession with

12

intent to distribute, a controlled substance, we believe

13

that the controlled substance is not -- that's -- the

14

guidelines do not specifically reference the statutory

15

definition, the federal statutory definition; that it is

16

encompassing it.

17

It, it flies in the face of logic, frankly,

18

Your Honor, for a guideline to say specifically that it

19

encompasses federal and state law violations but then to

20

say, Oh, but only if those state laws are identical to

21

the federal law.

22

THE COURT:

All right.

Well, we could probably

23

talk about this all day.

24

I'm sure it will be resolved on appeal, which it should

25

be.

It's an interesting issue, and

LISA KNIGHT COSIMINI, RMR-CRR
Official Court Reporter - U.S. District Court
(217) 355-4227

Pet. App. 17a

Appendix C

USA v. Nathaniel M. Ruth, No. 19-20005 -- Sentencing (01/06/2020)
1

24

I'm going to adopt the government's position on

2

this, which is that the wording of the guideline is such

3

that I don't think the analysis that defense counsel has

4

made is the one that truly applies.

5

that objection.

6

So I'm going to deny

Concerning the objection as to the marijuana

7

part of this, as I understand it, you're saying that the

8

judge wrongfully denied the motion to expunge?

9

MR. MALIZA:

No, Your Honor.

I'm saying

10

that -- I don't know whether these are objections or

11

comments to --

12

THE COURT:

13

MR. MALIZA:

Whatever.
But I'm saying that it

14

overrepresents it, the criminality; the history is

15

overrepresented.

16

their decision is, you know, set there.

17

I disagree with their decision, but

THE COURT:

I think it -- I, I -- so I think

18

technically it's still valid; but your argument that,

19

because of all the circumstances, it overrepresents it

20

may have merit.

I'll address that later.

21

Did you have something you wanted to say?

22

MS. RITZER:

23

If I could just note, Your Honor, I think that

I did.

24

there's an important distinction to be made.

25

counsel's -- or Defendant's motion, whether intentional

LISA KNIGHT COSIMINI, RMR-CRR
Official Court Reporter - U.S. District Court
(217) 355-4227

Pet. App. 18a

Defense

Case: 20-3096

Document: 26

Filed: 04/16/2021

Pages: 2

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted March 22, 2021
Decided April 16, 2021
Before
DIANE S. SYKES, Chief Judge
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 20-3096
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

Appeal from the United States District
Court for the Central District of Illinois.

v.

No. 19-20035-001

DONTAVIOUS M. GORDON,
Defendant-Appellant.

James E. Shadid,
Judge.
ORDER

Dontavious Gordon pleaded guilty to conspiring to distribute
methamphetamine, see 21 U.S.C. §§ 846, 841(a)(1) and (b)(1)(A), and the district court
ruled that his prior Illinois conviction for cocaine trafficking, see 720 ILL. COMP. STAT.
570/401(c)(2), involved a “controlled substance” under the Sentencing Guidelines and
thus increased his sentencing range. See U.S.S.G. § 2K2.1(a)(4)(A). On appeal Gordon
argues that Illinois’s cocaine-trafficking law is broader than the federal definition, so it
should not count as a “controlled substance” offense under the Guidelines.
Gordon’s arguments are foreclosed by our recent decisions in United States v.
Ruth, 966 F.3d 642 (7th Cir. 2020), and United States v. Wallace, 991 F.3d 810 (7th Cir.
2021). In Ruth we rejected the argument that the term “controlled substance” as defined
in U.S.S.G. § 4B1.2(b) refers only to a substance banned by the federal Controlled
Pet. App. 19a

Appendix D

Case: 20-3096

Document: 26

Filed: 04/16/2021

No. 20-3096

Pages: 2

Page 2

Substances Act, 21 U.S.C. § 802(6). The defendant there argued that because the Illinois
statute prohibits distribution of “positional isomers” of cocaine and the Controlled
Substances Act does not, a conviction under the Illinois statute does not involve a
“controlled substance” under § 4B1.2(b) and thus cannot be used to increase the
sentencing range under § 2K2.1(a)(4)(A). We disagreed, explaining that the Guidelines’
use of the term “controlled substance” broadly refers to the ordinary meaning of that
term—not just to the federal Controlled Substances Act—and that the ordinary meaning
includes Illinois’s definition. Ruth, 966 F.3d at 654.
In United States v. Wallace, 991 F.3d 810 (7th Cir. 2021), we were urged to revisit
and overrule Ruth. We declined to do so. Id. at 817. Alternatively, we were asked to
hold that the Illinois statute is broader than Ruth’s ordinary-meaning definition of
“controlled substance” because positional isomers of cocaine are not psychoactive. We
rejected this argument too, noting that Ruth itself involved the Illinois statute and that
positional isomers of cocaine “fit the natural meaning of ‘controlled substance.’” Id. We
also declined the defendant’s invitation to “speculate about whether [positional isomers
of cocaine] alter behavior.” Id.
Gordon raises the same arguments we rejected in Ruth and Wallace (and no
others). We therefore summarily AFFIRM the judgment.

Pet. App. 20a

6

1 nothing to add in writing other than the fact that
2 if we read Ruth and look at the facts that have
3 already been presented and the arguments, that I
4 guess what I am saying, Your Honor, is if we put
5 this off and we put this for further briefing, the
6 result is that I would file something saying that I
7 would ask the Court to apply Ruth by strict
8 language. I would cite to the same things already
9 on the docket on this case about positional isomers
10 and about all of the arguments regarding Ruth: If
11 it is overbroad, it is overbroad and not a career
12 offender type offense. So my position is it's not
13 to be added because there's no case rulings on this.
14

THE COURT: I guess I'm having a hard time

15 understanding what you're reserving then without
16 actually making a formal objection to it.
17

MR. MALIZA: I guess I am making a formal

18 objection that the very definition that Ruth -19 that's done -- does not include cocaine as defined
20 under Illinois law. It is a formal objection. If
21 the Court would want a written submission, I could
22 do that. I just don't know that it would further
23 educate the Court on issues because they all have
24 been put before the Court except for that sentence.
25

THE COURT: Mr. Finlen.
Nancy Mersot, CSR-RPR
United States District Court
Peoria, IL 61602

Pet. App. 21a

Appendix E

7

1

MR. FINLEN: Your Honor, I believe that I

2 understand the objection. And I think it's looking
3 at one of the last few paragraphs of Ruth. And if I
4 don't understand it, maybe written submissions are
5 in order because what I believe it's saying is:
6 Ruth says, quote: A controlled substance is
7 generally understood to be -- quote -- any of the
8 category of behavior-altering or addictive drug, as
9 heroin or cocaine, whose possession and use are
10 restricted by law, unquote.
11

I believe what is happening now is that the

12 defendant is claiming that the identical Illinois
13 statutes that were at issue in Ruth are at issue
14 here. The challenge in Ruth was that the statutes
15 are overbroad and the definition of controlled
16 substance should have been applied to the
17 guidelines. Ruth held that no, the guidelines don't
18 incorporate the Federal Control Substances Act for
19 definition.
20

The new objection now, that I just heard of

21 today, was that based on the portion of Ruth that I
22 quoted and the government's brief that suggests that
23 it is not definitive on the issue is that the brief
24 says that the portion that the defendant cites is
25 "highly unlikely" that they are psychoactive,
Nancy Mersot, CSR-RPR
United States District Court
Peoria, IL 61602

Pet. App. 22a

8

1 meaning that the broader definition may not -- may
2 include drugs that are highly unlikely to be
3 psychoactive; and then when using the decision in
4 Ruth the -- there's some concern that that broadness
5 does not fall under this new definition as set forth
6 by Ruth. It is all very complicated.
7

So I wonder if maybe briefing is in order,

8 unless we are going to get to the same place where
9 we both argue what we've argued now. The briefings
10 are what they are. The Court is bound by Ruth to
11 find that this Illinois conviction does qualify for
12 career offender guidelines, and then we just take
13 our -- this briefing up to the Seventh Circuit where
14 it would end up anyway, because I believe this Court
15 would be bound by Ruth, unless the defense believes
16 otherwise that this Court may not be so bound under
17 this new line of argument in which case I think that
18 we would be briefing.
19

THE COURT: Mr. Maliza, clear it up for us.

20

MR. MALIZA: Well, Your Honor, I am very

21 hesitant to say that the Court is not bound because
22 I don't want that to be interpreted as some sort of
23 waiver. I was nodding my head along with Mr. Finlen
24 when he said that briefing would bring us back to
25 this same argument. I think that Ruth says what it
Nancy Mersot, CSR-RPR
United States District Court
Peoria, IL 61602

Pet. App. 23a

9

1 says. I think the briefing addresses that.
2

I do agree that the statute at issue in Ruth

3 is the statute at issue here. I do agree it's
4 highly unlikely that this Court will, will -- I
5 don't know, it's a good-faith argument. So I think
6 that there is reason to believe that it is -- that
7 the definition in Ruth -- it's still overbroad.
8

THE COURT: Well, if I believe, without

9 briefing and based on this, that Ruth applies here
10 and that the career offender guidelines then are
11 applicable, then you have the issue preserved if you
12 believe that it is still overbroad, correct?
13

MR. MALIZA: Yes, Your Honor.

14

THE COURT: Okay. Let's go -- Mr. Finlen,

15 do you agree?
16

MR. FINLEN: I would agree that if the Court

17 asks defense whether or not they would like to brief
18 this issue, that's one issue. If they decline that
19 invitation then we can go forward; it's preserved as
20 the record has been made now.
21

THE COURT: That's fair enough.

22

Mr. Maliza, would you like some additional

23 time to brief the issue?
24

MR. MALIZA: No, Your Honor. I think that I

25 made my argument on the record now.
Nancy Mersot, CSR-RPR
United States District Court
Peoria, IL 61602

Pet. App. 24a

10

1

THE COURT: Okay. Then based on that then

2 that will, sounds like, likely preserve your issue.
3

Are there any other formal objections that

4 are in writing that this Court needs to address?
5

MR. FINLEN: None for the government.

6

MR. MALIZA: No, Your Honor. I believe that

7 those are all of the objections that we made.
8

THE COURT: All right. Then are there any

9 additions or corrections to the Presentence Report?
10

MR. FINLEN: From the government, no, Your

11 Honor.
12

MR. MALIZA: No, Your Honor.

13

THE COURT: All right. Then let me adopt

14 the Presentence Report this day.
15

MR. MALIZA: Oh, Your Honor.

16

THE COURT: Go ahead.

17

MR. MALIZA: I am very sorry. One thing

18 that did come up previously, although it won't
19 change the sentencing range, Coles County has
20 expunged Mr. Gordon's ordinance violation, marijuana
21 conviction.
22

THE COURT: What paragraph is that, 18 --

23

MR. MALIZA: I think so.

24

THE COURT: -- I mean 34?

25

MR. MALIZA: Yes, 34, Your Honor.
Nancy Mersot, CSR-RPR
United States District Court
Peoria, IL 61602

Pet. App. 25a

Case: 20-2520

Document: 24

Filed: 05/06/2021

Pages: 2

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted May 5, 2021
Decided May 6, 2021
Before
JOEL M. FLAUM, Circuit Judge
AMY J. ST. EVE, Circuit Judge
THOMAS L. KIRSCH II, Circuit Judge
No. 20-2520
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

Appeal from the United States District
Court for the Southern District of Indiana,
Indianapolis Division.

v.

No. 1:20CR00049-001

MARK A. CARTER,
Defendant-Appellant.

Tanya Walton Pratt,
Chief Judge.
ORDER

Mark Carter pleaded guilty to possessing methamphetamine with intent to
distribute. See 21 U.S.C. § 841(a)(1), (b)(1)(A). The district court held that his prior
Indiana conviction for dealing cocaine, see Ind. Code § 35-48-4-1, involved a “controlled
substance” under the Sentencing Guidelines and thus increased his sentencing range,
see U.S.S.G. § 4B1.1(a). On appeal Carter argues that Indiana’s cocaine-trafficking law is
broader than the federal definition, so it should not count as a “controlled substance
offense” under the Guidelines.
Carter’s arguments are foreclosed by United States v. Ruth, 966 F.3d 642 (7th Cir.
2020), and United States v. Wallace, 991 F.3d 810 (7th Cir. 2021), and we decline his
invitation to revisit those decisions. In Ruth we rejected an argument that the term
Pet. App. 26a

Appendix F

Case: 20-2520

Document: 24

Filed: 05/06/2021

Pages: 2

No. 20-2520

Page 2

“controlled substance,” as defined in U.S.S.G. § 4B1.2(b), refers only to a substance
banned by the federal Controlled Substances Act, 21 U.S.C. § 802(6). The defendant
there argued that because the Illinois statute prohibits distribution of “positional
isomers” of cocaine and the Controlled Substances Act does not, a conviction under the
Illinois statute does not involve a “controlled substance” under § 4B1.2(b) and thus
cannot be used to increase the sentencing range under § 4B1.1. We disagreed,
explaining that the Guidelines’ use of the term “controlled substance” broadly refers to
the ordinary meaning of that term—not just to the federal Controlled Substances Act—
and that the ordinary meaning includes Illinois’s definition. Ruth, 966 F.3d at 654.
In Wallace, we were urged to revisit and overrule Ruth but declined to do so. 991
F.3d at 817. Alternatively, we were asked to hold that the Illinois statute is broader than
Ruth’s ordinary-meaning definition of “controlled substance” because positional
isomers of cocaine are not psychoactive. We rejected this argument too, noting that Ruth
itself involved the Illinois statute and that positional isomers of cocaine “fit the natural
meaning of ‘controlled substance.’” Id. We also declined the defendant’s invitation to
“speculate about whether [positional isomers of cocaine] alter behavior.” Id.
Carter was convicted under the Indiana statute for dealing cocaine rather than
the Illinois statute at issue in Ruth and Wallace. But Indiana’s definition of cocaine
includes “any … isomer,” Ind. Code § 35-48-1-7, and is functionally identical to the
Illinois definition. See United States v. De La Torre, 940 F.3d 938, 951–52 (7th Cir. 2019)
(holding Indiana definition of isomer includes optical, positional, and geometric
isomers). Carter does not argue that his case can be distinguished on this basis.
Carter makes the same arguments we rejected in Ruth and Wallace (and no
others). We therefore summarily AFFIRM the judgment.

Pet. App. 27a

15
1 and voluntary, it is supported by an independent basis in fact
2 that contains each of the essential elements of the offense.
3 The plea is therefore accepted and Mr. Carter is adjudged
4 guilty of Count 2, possession with intent to distribute
5 500 grams or more of methamphetamine.
6

And I assume everybody is prepared to proceed with

7 sentencing.

Government?

8

MR. HILTON:

9

THE COURT:

Yes, Your Honor.
Mr. Hilton, have you had an opportunity

10 to review the Presentence Investigation Report?
11

MR. HILTON:

I have, and I have no corrections or

12 additions.
13

THE COURT:

Okay.

Thank you.

14

Mr. Donahoe, you and your client, were you all able

15 to get together and review the PSR?
16

MR. DONAHOE:

17

THE COURT:

We were, Your Honor.

And you have filed an objection to

18 paragraph 33, and that's his Career Offender status, because
19 you were arguing that the Indiana law defines cocaine more
20 broadly than the federal law.

And do you still have that

21 argument considering the recent decision in -22

MR. DONAHOE:

23

THE COURT:

24

MR. DONAHOE:

Ruth.

-- Ruth?
I don't have the argument, but I have

25 the objection, Your Honor.

There is a pretty robust circuit

Pet. App. 28a

Appendix G

16
1 split here.

I think four or five of the circuits go against

2 the Ruth decision, and so I do want to stand on the objection
3 just to preserve that.

But I understand that the Court is

4 bound to follow current Seventh Circuit case law and the Ruth
5 decision kind of cuts the objection right out from under us.
6

THE COURT:

Okay.

7

MR. DONAHOE:

8

THE COURT:

Thank you.

Did you have anything you wanted to add,

9 Mr. Hilton?
10

MR. HILTON:

11

THE COURT:

I agree, Your Honor.
All right.

Because of the decision, the

12 Seventh Circuit decision in United States v. Ruth, I don't
13 even have a cause number other than 20-1034, the Court is
14 going to overrule the objection based on Ruth.

The guidelines

15 did not incorporate the Controlled Substances Act definition
16 of controlled substance offenses, so I'm going to overrule the
17 objection and find that the defendant's Indiana dealing in
18 cocaine offense qualifies him -- qualifies as controlled
19 substances, and so he's, unfortunately, going to be declared a
20 Career Offender.
21

All right.

So with that being said, the Court is

22 going to accept the Presentence Investigation Report for the
23 record under seal.

In the event of appeal, counsel on appeal

24 will have access to the report, but not the recommendation
25 portion, which shall remain confidential.

Pet. App. 29a

